<html>
<title> - NATIONAL RIGHT-TO-CARRY RECIPROCITY ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







            NATIONAL RIGHT-TO-CARRY RECIPROCITY ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 822

                               __________

                           SEPTEMBER 13, 2011

                               __________

                           Serial No. 112-53

                               __________

         Printed for the use of the Committee on the Judiciary






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
68-298 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             DEBBIE WASSERMAN SCHULTZ, Florida
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
[Vacant]

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

BOB GOODLATTE, Virginia              ROBERT C. ``BOBBY'' SCOTT, 
DANIEL E. LUNGREN, California        Virginia
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
TED POE, Texas                       HENRY C. ``HANK'' JOHNSON, Jr.,
JASON CHAFFETZ, Utah                   Georgia
TIM GRIFFIN, Arkansas                PEDRO R. PIERLUISI, Puerto Rico
TOM MARINO, Pennsylvania             JUDY CHU, California
TREY GOWDY, South Carolina           TED DEUTCH, Florida
SANDY ADAMS, Florida                 DEBBIE WASSERMAN SCHULTZ, Florida
BEN QUAYLE, Arizona                  SHEILA JACKSON LEE, Texas
                                     MIKE QUIGLEY, Illinois

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel











                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 13, 2011

                                                                   Page

                                THE BILL

H.R. 822, the ``National Right-to-Carry Reciprocity Act of 2011''     3

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     9

                               WITNESSES

Joyce Lee Malcolm, Professor of Law, George Mason University
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
David B. Kopel, Adjunct Professor, Denver University Sturm 
  College of Law
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Charles H. Ramsey, Commissioner, Philadelphia Police Department
  Oral Testimony.................................................    51
  Prepared Statement.............................................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    10

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from the Dave Pecchia, Executive Director, Minnesota 
  Chiefs of Police Association (MCPA)............................    86
Letter from Charles H. Ramsey, Police Commissioner, City of 
  Philadelphia, President, Major Cities Chiefs' Association......    88
Letter from Mayors Against Illegal Guns..........................    89
Letter from Mark A. Marshall, President, International 
  Association of Chiefs of Police................................    97

 
            NATIONAL RIGHT-TO-CARRY RECIPROCITY ACT OF 2011

                              ----------                              


                      TUESDAY, SEPTEMBER 13, 2011

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                             and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:59 a.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr. (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Lungren, 
Forbes, Poe, Chaffetz, Griffin, Gowdy, Adams, Quayle, Conyers, 
Scott, Cohen, Chu, and Quigley.
    Mr. Sensenbrenner. The Subcommittee will be in order.
    I yield myself 5 minutes for an opening statement.
    Many States with concealed carry laws have extended 
concealed carry privileges of reciprocity to residents of other 
States. However, the laws are confusing, vary widely, and 
subject otherwise law-abiding citizens to frivolous 
prosecution. To address this problem, H.R. 822, the National 
Right-to-Carry Act, provides that anyone who has a valid 
firearm carry permit to use that permit in any other State that 
issues concealed weapon permits.
    Individuals carrying a concealed firearm would be required 
to comply with the rules and restrictions of the State he or 
she is visiting. Forty-eight States currently permit concealed 
carry in some manner. Thirty-five States have shall-issue 
permit laws, which require States to issue permits to people 
who meet legal requirements for a concealed carry permit.
    In November, my State of Wisconsin will implement a newly 
enacted shall-issue law, replacing its current prohibition on 
concealed carry. As more and more States adopt the shall-issue 
policy, the idea of national reciprocity legislation makes more 
sense.
    The ability to travel freely and to provide for one's 
defense are the hallmarks of liberty and should be recognized 
by our government.
    Moreover, States with right-to-carry laws have lower 
violent crime rates than States that don't. According to FBI 
statistics, States with concealed carry laws have 22 percent 
lower violent crime rates, 30 percent lower murder rates, 46 
percent lower robbery rates, and 12 percent lower aggravated 
assault rates, compared to the rest of the country.
    It is important to reiterate that this legislation does not 
create a national licensing scheme. Rather, it would require 
States that currently permit people to carry concealed firearms 
to recognize other States' valid concealed carry permits, much 
like States recognize drivers' licenses issued from other 
States. H.R. 822 does not, however, impact State laws governing 
how firearms are used within the various States.
    I have long been an advocate for the Second Amendment, and 
I believe the Constitution provides law-abiding citizens the 
freedom to keep and bear arms. This legislation recognizes that 
the right to bear arms does not stop at the State line and is 
unimpeded by different State governments.
    And with that, I yield back the balance of my time and 
recognize the gentleman from Virginia, Mr. Scott, the Ranking 
minority Member.
    [The bill, H.R. 822, follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, gun violence remains a major problem in our 
country. As a Nation, we continue to struggle with various 
proposals to address this issue. I believe this bill is a step 
backwards in an effort to enhance gun safety, because it would 
overrule existing judgments enacted by States controlling who 
should be allowed to carry concealed weapons within their 
borders.
    Setting aside for a moment the issue of whether it is a 
good idea to allow or encourage the carrying of concealed 
weapons, it should certainly be unwise and improper for us to 
discard the ability of States to protect the safety of their 
own citizens.
    I cite a letter from the Virginia Association of Chiefs of 
Police to this Committee, stating that, ``H.R. 822 would 
severely undermine State concealed carry licensing systems by 
allowing out-of-state visitors to carry concealed firearms even 
if those visitors have not met the standards of carrying a 
concealed weapon in the State which they are visiting.''
    I would ask, Mr. Chairman, this letter be included into the 
record.
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. If a State decides to enter into a reciprocity 
agreement with another State, as many States do, that is their 
right, and they continue to exercise independent judgment about 
how to protect their own citizens. However, we in Congress must 
not strip them of their power to decide how to protect the 
safety of their citizens.
    Also, this bill presents police on the beat with an almost 
impossible challenge of knowing whether an out-of-state permit 
as valid or not.
    Do we have the screen?
    You can see on the screen--I think they are going to show--
this is a South Dakota permit, and the next----
    Mr. Sensenbrenner. If the gentleman would suspend a bit, 
can we dim the lights here so we can see what is on the screen 
a little better?
    Mr. Scott. This is the South Dakota permit.
    Mr. Sensenbrenner. Thank you.
    Mr. Scott. And the next, Mr. Chairman, is an Indiana 
permit.
    If you notice, these look apparently easy to forge, to just 
print up. And a cop on the beat wouldn't know whether he is 
looking at a valid permit or not.
    Today, we will hear from Philadelphia Police Commissioner 
Ramsey about the unnecessary problems this bill presents to law 
enforcement and experience he has had, which illustrates why we 
should reject the bill.
    In the Crime Subcommittee, we debate measures which we hope 
will protect public safety. Unfortunately, this will do just 
the opposite.
    I look forward to the witnesses and look forward to 
discussing the issues with them.
    Thank you, Mr. Chairman. I yield back.
    Mr. Sensenbrenner. Thank you.
    Without objection, all Members' opening statements will 
appear in the record at this time.
    Without objection, the Chair is authorized to declare 
recesses of the Committee during votes today.
    It is now my pleasure to introduce today's witnesses.
    Professor Joyce Lee Malcolm is a professor of law at George 
Mason University School of Law. She previously taught at 
Princeton, Bentley University, Boston University, Northeastern 
University, and Cambridge University. She is a fellow of the 
Royal Historical Society and a fellow of Robinson College at 
Cambridge University. She served as the senior advisor of MIT's 
securities studies program and a visiting scholar at the 
Massachusetts Center for Renaissance Studies. She earned her 
bachelor of arts, master of arts, and Ph.D. from Brandeis.
    Professor David Kopel is research director of the 
Independence Institute, a public policy research organization 
in Golden, Colorado, and is associate policy analyst with the 
Cato Institute in Washington, D.C. He is an adjunct professor 
of constitutional law at the University of Denver Sturm College 
of Law.
    Before joining the Independence Institute, Mr. Kopel served 
as assistant attorney general for the State of Colorado. From 
1998 to 1999, he served as an adjunct professor of law at NYU. 
And from 2001 to 2009, he was a media columnist for the Rocky 
Mountain News. He earned his bachelor of arts in history from 
Brown, and his juris doctorate from the University of Michigan.
    Commissioner Charles H. Ramsey was appointed police 
commissioner of the Philadelphia Police Department in 2008. He 
currently serves as president of both the Police Executive 
Research Forum and the Major Cities Chief Association.
    In 2007, he was a security consultant to the Washington, 
D.C., Convention Center and the United States Senate Sergeant 
at Arms. During that year, he also served on the Independent 
Commission on Security Forces of Iraq, led now by National 
Security Advisor General James L. Jones.
    Commissioner Ramsey also served as the chief of the 
Washington, D.C., Metropolitan Police Department from 1998 to 
2006. He served in the Chicago Police Department for nearly 
three decades in a variety of assignments, including deputy 
superintendent of the bureau of staff services. He holds both a 
bachelor's and master's degree in criminal justice from Lewis 
University in Romeoville, Illinois.
    Each of the witnesses' written statements will be entered 
into the record in its entirety. I ask each witness to 
summarize his or her testimony in 5 minutes or less.
    And, Professor Malcolm, you are the first up.
    Could you please turn the mike on and pull it toward you?
    And we will reset the clock.

TESTIMONY OF JOYCE LEE MALCOLM, PROFESSOR OF LAW, GEORGE MASON 
                           UNIVERSITY

    Ms. Malcolm. Thank you. As we all know, there has been a 
national debate in this country for more than 30 years over 
whether more guns in private hands means more crime or more 
guns in private hands means less crime. While the national 
Government has passed statutes like the Brady bill and the 
assault weapons ban, and then allowed it expire, the States 
have also been discussing which route to take. And they have 
been opting one by one to permit their citizens to carry 
firearms concealed, in the confidence that this can both help 
them defend themselves and also deter crime.
    The Americans and the British share a common law view on 
self-defense, which William Blackstone summarizes very briefly 
when he says: ``Self-defense is the primary law of nature, so 
it is not, neither can it be in fact, taken away by the laws of 
society.''
    In America, the people have opted and the States have opted 
to allow the people to be armed. In Great Britain, they have 
preferred to insist that people depend on the police, and they 
have disarmed public citizens more and more.
    And there has been a dramatic difference in the rate, in 
the crime results in both of these. I am just quickly going to 
start with America.
    In America, since crime, violent crime, peaked in 1991, 25 
States have passed concealed carry statutes. And I will ask the 
Chairman's permission to include Wisconsin in the 49 States 
that now permit concealed carry, since I believe it is November 
that it will go into----
    Mr. Sensenbrenner. The Governor signed the bill, so 
permission is granted.
    Ms. Malcolm. Okay, thank you.
    So there are now, or there will shortly be, 39 of the 
States of the 49 States that are shall-issue States. Illinois 
is the only State that does not permit people to carry 
concealed weapons. And all of these States have trusted to the 
good judgment of the people and their responsibility.
    Since 1991, when crime peaked, millions of guns have been 
purchased and hundreds of thousands of permits have been 
issued. But violent crime has been declining for 20 years. In 
1991, 758 crimes per 100,000 people were recorded. By 2009, it 
was down to 429 per 100,000 people.
    The people who have been registered to carry concealed 
firearms have done so remarkably responsibly. There is a sense 
and an understanding that police cannot protect everyone. And 
in fact, court cases have shown that they have no duty to 
protect.
    In the case here in the District of Columbia, Warren v. the 
District of Columbia, when women sued the police department 
because they had failed to answer 911 when called repeatedly 
for over a half hour, the judge, in finding in favor of the 
police, found what he called ``a fundamental principle of 
American law that a government and its agents are under no 
general duty to provide public services such as police 
protection to any individual citizen.''
    In addition, since citizens are left to themselves, it is 
really important they be able to protect themselves. And of 
course, in the last couple of years, the Supreme Court has 
affirmed that the Second Amendment does guarantee an individual 
right to keep and bear arms in both the Heller case and now in 
McDonald v. the City of Chicago last year.
    In Great Britain, by contrast, since 1920, both parties 
have decided to disarm citizens. So in 1920, they passed a law 
that you had to get a license to carry a handgun and you had to 
have a good reason to get that license. And gradually, what was 
considered a good reason has been ratcheted down, so that by 
1969, self-defense was never a good reason to have a gun. In 
1997, their Firearms Act outlawed all handguns in private hands 
and confiscated those that were already owned and registered.
    In 1953, their Prevention of Crime Act prohibited carrying 
any article for defensive purposes in a public place. And an 
Arizona tourist was arrested, for example, for defending 
herself against three men who attacked her in a subway station 
by using her penknife. When she reported it to the police, she 
was arrested for carrying an offensive weapon.
    They also have a list of weapons for which you get an 
automatic 10-year sentence, and along with rocket launchers and 
machine guns, this includes chemical sprays.
    The result of this kind of disarmament of the public has 
been that gun crime in the United Kingdom doubled in the past 
decade. So having banned handguns and taken them out of the 
possession of people who already had them, they have not 
stopped gun crime. They have simply made it worse.
    In 2009, Britain was judged from studies as the most 
dangerous country in Europe.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    Ms. Malcolm. Okay.
    [The prepared statement of Ms. Malcolm follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Sensenbrenner. Professor Kopel?

    TESTIMONY OF DAVID B. KOPEL, ADJUNCT PROFESSOR, DENVER 
                UNIVERSITY STURM COLLEGE OF LAW

    Mr. Kopel. Thank you, Chairman Sensenbrenner.
    Mr. Sensenbrenner. Could you please turn on the mike?
    Mr. Kopel. We are slow learners over here.
    The constitutional right to travel is supported by many 
Supreme Court precedents. The Supreme Court's most recent 
decision on the right to travel is Saenz v. Roe from 1999. 
Writing for a seven-justice majority, Justice Stevens explained 
that the nature of our Federal union and our constitutional 
concepts of personal liberty require that all citizens be free 
to travel throughout the length and breadth of our land, 
uninhibited by statutes, rules, or regulations, which 
unreasonably burden or restrict this movement.
    The Saenz court explained that one component of the right 
to travel is the right to be treated as a welcome visitor 
rather than an unfriendly alien when temporarily present in the 
second State.
    In 1868, the 14th Amendment granted a new power to Congress 
to enforce the national citizenship rights of the American 
people. Notably, congressional debate on the 14th Amendment's 
privileges or immunities clause indicated specific intent to 
protect the right to travel.
    Congress discussed South Carolina's notorious 1844 
persecution of Samuel Hoar, an attorney from Massachusetts. He 
had traveled to South Carolina to mount a legal challenge to 
the State law which authorized the capture and enslavement of 
free Black sailors whose ship entered a South Carolina port. 
Incited by the South Carolina Legislature and Governor, mobs 
threatened violence against the attorney, and he was forced to 
leave the State.
    The great Illinois Senator Lyman Trumbull was the author of 
the 13th Amendment abolishing slavery. He cited the Samuel Hoar 
case and Mississippi's prohibition on gun ownership by freedmen 
as examples of the needs for a congressional power to enforce 
national citizenship rights.
    Today, every State but one allows the carrying of handguns 
in public places for lawful self-defense. The large majority of 
these States have reciprocity agreements with other States, so 
that a carry permit issued to residents in State A may be used 
by those residents when they visit State B, and vice versa.
    These States are not the primary problem that H.R. 822 
addresses. A few States, including California, New York, and 
New Jersey, refuse to enter into reciprocity agreements with 
any of their sister States, and they have no provision allowing 
a nonresident to apply for a permit.
    These States impose impediments on interstate travel that 
discriminate against travelers based on the mere fact that they 
are citizens of other States. They deny the right to be treated 
as a welcome visitor rather than an unfriendly alien when 
temporarily present in the second State.
    Notably, the need to be prepared for self-defense is 
especially acute when one is traveling in a different State. At 
home, one will be familiar with the safety of different parts 
of town at different times of the day. A visitor will not have 
such familiarity and could more easily end up in a dangerous, 
high-crime area.
    Further, tourists and similar visitors are particularly 
targeted by criminals. Their style of dress or mannerisms may 
indicate that they are not familiar with local customs. Because 
they are not local residents, they are known to be less likely 
to be able to make another trip to testify in court against a 
criminal, so the criminal has a greater sense of impunity in 
attacking a tourist.
    To be deprived of the right of self-defense while traveling 
is to be deprived of the constitutional right to travel freely 
and safely throughout the entire United States of America.
    In addition to the right to travel, Congress has the 
constitutional authority to protect American citizens from 
State or local government infringements of the Second Amendment 
right to bear arms. As the Supreme Court explained in District 
of Columbia v. Heller, the right to bear arms includes the 
right to carry weapons in the case of confrontation for the 
core lawful purpose of self-defense.
    The Heller opinion listed some presumptively lawful 
regulatory measures. According to the Supreme Court, ``nothing 
in our opinion should be taken to cast doubt on long-standing 
prohibitions on the possession of firearms by felons and the 
mentally ill, or laws forbidding the carrying of firearms in 
sensitive places, such as schools and government buildings.'' 
These are the exceptions that prove the rules.
    Under Heller, ordinary citizens, but not felons or the 
mentally ill, have Second Amendment rights to possess guns. The 
Second Amendment right includes the right to carry guns but not 
in sensitive places.
    Samuel Hoar escaped before the criminals could injure or 
kill him. Many interstate travelers are not so lucky. Congress 
has the clear constitutional authority and the responsibility 
to protect national citizenship rights from infringements by 
State or local governments.
    H.R. 822 safeguards the constitutional right to travel and 
the constitutional right to bear arms and enhances public 
safety.
    Thank you.
    [The prepared statement of Mr. Kopel follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much.
    Commissioner Ramsey?

  TESTIMONY OF CHARLES H. RAMSEY, COMMISSIONER, PHILADELPHIA 
                       POLICE DEPARTMENT

    Mr. Ramsey. Good morning and thank you, Mr. Chairman, 
Ranking Member Scott, and distinguished Members of the 
Subcommittee, for inviting me to testify today.
    This is an important opportunity to discuss a critical 
issue affecting law enforcement organizations across our Nation 
and our ability to serve the public.
    Having had 42 years in policing and law enforcement, I have 
witnessed many important changes in public safety across police 
departments in three cities, first in Chicago for 30 years; and 
as chief here in Washington, D.C., for 9 years; and now as 
police commissioner in Philadelphia, the Nation's fourth-
largest police department, for the past 3.5 years.
    I also have the privilege of serving as both President of 
the Major City Chiefs Association, which represents the 
leadership of 63 of the largest municipalities in the United 
States, and the Police Executive Research Forum.
    I am here today to urge Congress to oppose H.R. 822, the 
National Right-to-Carry Reciprocity Act. This bill would 
eliminate the right the States now have to set their own public 
safety laws in consultation with law enforcement professionals.
    This legislation is not aligned with our vision for the 
future of policing. It is counter to what the field of law 
enforcement needs to create safer neighborhoods, towns, and 
cities.
    The Federal Government, under this bill, will compel every 
State to honor every other State's permit to carry concealed 
and loaded guns, no matter how different their standards and 
criteria for securing a permit. H.R. 822 undermines the 
traditional authority of State and local governments to protect 
their citizens with reasonable, constitutional, and community-
specific laws for carrying hidden loaded guns.
    Every State legislature has intensely debated what minimum 
standards should apply within their borders, and has put the 
standards in place. If a State has decided that a person should 
demonstrate proficiency with a gun before carrying it loaded in 
public, Washington should not second-guess that decision.
    In 2005 in Philadelphia, a man named Marqus Hill had his 
concealed carry permit revoked by the Philadelphia Police 
Department after he had been charged with attempted murder. He 
was able to receive a permit in Florida despite his record and 
then use his Florida permit to carry a loaded gun in 
Philadelphia. He eventually shot a teenager 13 times in the 
chest, killing him on the street.
    H.R. 822 would nationalize the ill-conceived policy to put 
a gun in Marqus Hill's hands. Pennsylvania's current 
reciprocity agreement with 25 other States, including Florida, 
have demonstrated the difficulty and the impact that a national 
policy such as H.R. 822 would impose.
    Consider the following situation, which could happen if 
this bill were to become law. A police officer in Brookfield, 
Wisconsin, has just pulled over a speeding driver who was a 
resident of Texas. The driver presents a concealed carry permit 
from Utah, which grants nonresident permits. There is no way 
for the Brookfield officer to verify that the permit is 
legitimate and up to date. He would simply be required to honor 
it. The consequences for our frontline police officers could be 
severe.
    Congress should not consider a policy at the Federal level 
that has no implementation system. We as police leaders cannot 
leave our officers, whose safety is our first priority, without 
a mechanism to determine if the permit they hold in their hands 
is real and valid.
    Today I represent countless uniformed officers across the 
Nation who oppose this bill, including the police chiefs who 
are members of the Major City Chiefs Association, the 
International Association of Chiefs of Police, and the Police 
Executive Research Forum, amongst others.
    As we face the challenge of keeping our citizens and our 
officers safe, I ask Washington to partner with local law 
enforcement agencies and develop reasonable approaches that 
protect citizens, protect our officers, and support States 
rights to provide public safety for their communities.
    And I am happy to answer any questions that you may have. 
Thank you again, and all Members of Committee, for providing me 
with the opportunity to testify this morning.
    [The prepared statement of Mr. Ramsey follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Sensenbrenner. Thank you, Commissioner.
    I will yield myself 5 minutes to start the questioning out.
    Commissioner Ramsey, I think you have a good point, 
relative to not knowing the legitimacy of a concealed carry 
permit that is issued by a foreign jurisdiction, what it looks 
like, and the like. Say this bill passes and a police officer 
makes a traffic stop and somebody pulls out a concealed carry 
permit of questionable legitimacy. What would the officer do in 
Philadelphia, if that happened?
    Mr. Ramsey. If it was questionable now, they would seize it 
and bring the individual in and check further to see whether or 
not it was legitimate. Now that is if it is obviously forged. 
Some of these forgeries are so good, you honestly cannot tell 
the difference unless you have certain equipment in order to be 
able to tell.
    Many of the permits from other States do not even have 
photographs on the permit. In Pennsylvania, we do. But in many 
jurisdictions, it is just simply a card with writing on it. And 
there is no way to really verify. If it is 3 o'clock in the 
morning and you have a traffic stop, there is not even a 
database. You can't even contact radio to determine whether or 
not this is a valid permit, because you can't run it through a 
database like you can a driver's license.
    Mr. Sensenbrenner. Okay, so the person who used that type 
of document would be detained for at least some period of time 
while the legitimacy of the document is checked out, either at 
a police station or elsewhere? Are you clear on that?
    Mr. Ramsey. I understood your question to be if it looked 
suspicious. In other words, it looked like it had been forged. 
That's different. If you have no reasonable suspicion that it 
is anything other than a legitimate permit, you wouldn't do 
that. You would simply allow the person to go.
    Mr. Sensenbrenner. Okay.
    Professor Kopel, what do you think about this hypothetical?
    Mr. Kopel. Well, I would say, in the Supreme Court, I have 
represented the International Law Enforcement Educators and 
Trainers Association, which is the main organization that 
trains law enforcement in firearms use. And I think the levels 
of police training are capable of addressing different types of 
identification from other States.
    It used to be, in the olden days, not all drivers' licenses 
had photographs on them, and it was certainly true that, in 
previous decades, if someone was in Colorado, say, with a New 
York driver's license, and they were speeding at 11 o'clock at 
night, the police officer in Denver couldn't call up the New 
York State Department of Motor Vehicles to test the validity of 
that license. And things still worked out all right anyway.
    I think this is something that is addressable by police 
training.
    Mr. Sensenbrenner. Okay, I yield back the balance of my 
time.
    The gentleman from Virginia, Mr. Scott?
    Mr. Scott. Thank you.
    Professor Malcolm, you mentioned the debate about whether 
or not more guns would increase or decrease crime. Do you think 
more firearms would increase crime or decrease crime?
    Ms. Malcolm. More firearms has not increased violent crime. 
We have had more firearms over the last few years, millions 
more, and violent crime has been going down dramatically. And 
the murder rate has been going down dramatically.
    Mr. Scott. So if we had more firearms, the crime rate in 
your judgment, would go down? Is that what I am hearing?
    Ms. Malcolm. It has gone down.
    Mr. Scott. Okay.
    Ms. Malcolm. I should say that, obviously, when crime goes 
down, there is more than one reason for that. I mean, good 
policing is also important.
    Mr. Scott. Do any States prohibit open carry, kind of Wild 
West, strap it to your waste, unconcealed--do any States 
prohibit open carry?
    Mr. Kopel. Approximately half the States prohibit open 
carry.
    Mr. Scott. Half the States prohibit open carry.
    Commissioner Ramsey, what kind of standards are usually 
imposed in order to get a concealed weapons permit?
    Mr. Ramsey. Well, in Philadelphia, for example, we will do 
a background check on an individual, looking for a criminal 
record. If they have a criminal record, certain misdemeanor 
offenses, such as stalking, for an example, some domestic 
violence, luring a child into a building, impersonating a 
police officer, certainly felonies, DUI convictions, those 
kinds of things, would make a person ineligible for a permit.
    In fact, we have had circumstances where we have denied a 
permit, but that same individual gets a permit from Florida, 
where we have reciprocity with the State Florida, and they are 
able to carry a gun in Pennsylvania, even though we have denied 
them the permit in Philadelphia.
    Mr. Scott. You don't have to be a resident in order to get 
a concealed weapons permit?
    Mr. Ramsey. Well, you do in Pennsylvania, but there are 
States where a nonresident permit is allowable.
    Mr. Scott. Do you have to be physically present to get a 
concealed weapons permit?
    Mr. Ramsey. There are some I am told you can get online.
    Mr. Kopel. If I could just elaborate a little on that?
    Florida is one of several States that issues permits to 
nonresidents. So for example, when I knew I was going to 
Florida on a business trip, you cannot walk into a Florida 
police station on Tuesday morning and then get a permit that 
same day. It is a process that takes weeks, including going to 
your local sheriff's department to get fingerprinted, and then 
the sheriff's department sends those fingerprints to----
    Mr. Scott. Do any States allow this to be done online?
    Mr. Kopel. There may be parts of the application process--
instead of writing your name and address on a piece of paper, 
there may be some States that allow you to do that online. But 
a completed application would require your in-person 
fingerprints taken by local law enforcement and then sent to 
the Florida Department of Law enforcement, for example.
    Mr. Scott. Is that the case in every State?
    Mr. Kopel. In Colorado?
    Mr. Scott. In every State.
    If this bill were to pass, and a State were to adopt fairly 
lax standards, like, you know, type it online and they will 
mail you your permit, would it be valid everywhere under this 
legislation?
    Mr. Kopel. Actually, for professional interests, I have 
tried--I have done applications for almost every State that 
issues nonresident permits, on a regular basis. And I have 
never seen States with anything lax like that, where you could 
just fill in a form and they wouldn't even verify your 
identity.
    Mr. Scott. Is there anything in the legislation that 
prohibits that? If they just charged enough, it could be a 
great revenue-raiser.
    Mr. Kopel. It is basically following the same system as 
with drivers' licenses, where some States, at least in the 
olden days, used to issue drivers' licenses to 14-year-olds, 
and others to older people, and they had different requirements 
for the amount of training you would have. And States were 
comfortable having reciprocity with each other for their 
licenses.
    Mr. Scott. Do all States prohibit access to a concealed 
weapons permit for someone on the terrorist watchlist?
    Mr. Kopel. I don't know of any State that formally does 
that, because the terrorist watchlist is a secret government 
list that people don't even have access to. I mean, that is 
really McCarthyism at its most extreme, to say somebody----
    Mr. Scott. What about domestic abuse?
    Mr. Kopel. Pardon?
    Mr. Scott. Domestic abuse. Domestic violence.
    Mr. Kopel. Federal law prohibits gun possession by anyone 
convicted of a domestic violence misdemeanor. So no State would 
or could issue a carry permit to a person with a domestic 
violence misdemeanor conviction.
    Mr. Scott. And, Commissioner Ramsey, if a person presented 
an out-of-state permit, would there be any probable cause to do 
anything?
    Mr. Ramsey. If there is a State, and we have 25 States 
where we have a reciprocity agreement, then they would be 
legitimate in terms of being able to carry that firearm.
    The problem is that different States have different 
criteria. Now, it has been mentioned, drivers' licenses. You 
can't just go to a car dealership, buy a car, and start 
driving. The step in between is called getting a license. You 
have to be tested, have certain knowledge of rules of the road. 
You have to show proficiency in being able to drive a car. 
There are certain standards that are in place.
    That is not the case with concealed--with gun permits right 
now.
    Some States require a person to show a level of proficiency 
with a firearm and go through certain steps to do that. There 
are other States that don't allow that at all. In fact, I 
believe it was Nevada that recently terminated their agreement 
with both Florida and Utah, but previously they had reciprocity 
agreements, because their standards did not match what they 
considered to be appropriate, and they, therefore, withdrew 
their reciprocity agreement, which a State ought to have the 
right to do that.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from California, Mr. Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Commissioner Ramsey, thank you for your service in the 
various positions of responsibility you have had.
    Let me ask you this. In the past, one of the arguments, 
strong arguments, has been, over the last 20 years, that if we 
were to allow more carry permits, or, generally speaking, if we 
were to allow more people to have access to personal weapons, 
it would cause the crime rate to go up, that is particularly 
the violent crime rate. The facts seem to be the opposite of 
that.
    And I listened to law enforcement, respected law 
enforcement, was a part of law enforcement as attorney general 
of California when these arguments were made. But I always said 
I would look at the facts as they were presented when people 
said there is a different side to it.
    In your opinion, both representing the group that you are 
here representing and in your personal experience, how do we 
explain the drop in the violent crime rate at the same time we 
have evidence of more weapons available to individuals? And 
there appears to be, over the last 20 years, a larger number of 
concealed permits given by the various States?
    Mr. Ramsey. Thank you, sir.
    Let me just say that the vast majority of people that 
purchase handguns legally are decent, law-abiding citizens that 
do not commit crime. They have no intention of committing 
crime. There is no question in my mind about that.
    In fact, in Philadelphia, for an example, we took a look at 
our homicides just for the first 6 months of this year. More 
than 80 percent of the people who were victims of homicide in 
Philadelphia had previous criminal records that would have 
barred them from buying a gun legitimately or getting a 
concealed permit to carry. Some 88 percent of the offenders, 
same thing.
    So the population that is committing the crime isn't 
necessarily the same population, to a large extent, buying the 
handguns.
    The issue I have is the lax nature of some of the laws of 
certain States that then I would have to accept in my 
jurisdiction should a national concealed carry law be passed. 
There are no standards in place at all for that.
    Mr. Lungren. So you are not against the idea of individual 
citizens having carry permits for concealed weapon?
    Mr. Ramsey. Well, that is a different issue. Personally, I 
don't like it, personally. But I am also a realist, and if you 
already have a jurisdiction----
    Mr. Lungren. Let me ask you that question. Personally, you 
don't like it. At least in my experience, most law enforcement 
people I know that have retired have a right to continue to 
carry.
    Mr. Ramsey. Right.
    Mr. Lungren. So it is good enough for them, but not good 
enough for the average citizen?
    Mr. Ramsey. Well, sir, the average law enforcement--in 
fact, all law enforcement officers, we are trained in the use 
of force. We are trained in how to use a firearm. We undergo 
constant training in that area.
    The average citizen that buys a gun, there is no 
requirement in most jurisdictions that they know how to load 
the gun or how to properly use it. There needs to be checks.
    As you get older, I mean, you get physical disabilities 
that can afflict you. Do you want someone with advanced stages 
of Parkinson's with a handgun firing----
    Mr. Lungren. No, I wouldn't, but it seems to me if someone 
is older and has less ability to physically defend themselves, 
perhaps the use of a weapon in their own home, or as they are 
going to their car, or in their own business, might be a means 
by which they are able to defend themselves despite age.
    Mr. Ramsey. Well, I am not arguing the in the home part. 
The carry and conceal is a danger to law enforcement. As we 
stop these individuals, we are the ones who have to make the 
stops on the street, sir. We are the ones that have to do that.
    Mr. Lungren. No, I understand.
    Mr. Ramsey. We do it at all hours of the night, 3 and 4 in 
the morning, with individuals, some very dangerous individuals 
that could be carrying falsified, forged documents. We just 
don't need to make it easier for them.
    If a State decides they will allow concealed carry for the 
residents, that is the right to do so. But to have a national 
concealed carry, without any kind of standards----
    Mr. Lungren. Okay, let me ask you about that.
    Mr. Ramsey [continuing]. Is a problem.
    Mr. Lungren. If the legislation had some minimum standards, 
could you support it at that point in time?
    Mr. Ramsey. It depends on the standards, sir. Registration, 
showing proficiency in the use of it, there are a lot of 
standards that would have to be present before I would sign off 
and say that it is a good bill.
    Mr. Lungren. But if we had standards that to your 
satisfaction met the standards you have Pennsylvania for 
example----
    Mr. Ramsey. Pennsylvania, I think, has a terrible law as it 
relates to concealed carry.
    Mr. Lungren. Oh, really?
    Mr. Ramsey. Way to lax. I happen to live in Pennsylvania 
and work in Pennsylvania; it doesn't mean I like the law in 
Pennsylvania. I think it is one of the weaker laws in the 
country.
    Mr. Lungren. Is there any State that you would suggest has 
the proper standards?
    Mr. Ramsey. Sir, I am not a proponent of concealed carry.
    Mr. Lungren. No, I understand. That is obvious.
    Mr. Ramsey. But from your question, then I would have to 
recognize a State, saying that I think that that is the right 
way to go.
    I realize there is a debate on this issue, and I respect 
the opinion of those that have a contrary opinion. But I 
personally do not like the idea of people carrying guns with no 
training, with no understanding of when it is appropriate to 
use force, get lost in a quote, unquote, ``bad neighborhood,'' 
everyone who lives in that neighborhood is not a criminal, and 
just because you were afraid, you turn around and shoot 
somebody. I have a problem with that.
    Mr. Lungren. I have a problem with that whether you have a 
permit or not.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Illinois, Mr. Quigley?
    Mr. Quigley. Thank you, Mr. Chairman.
    I will address my comments to the professors here. I have 
only been here a little over 2 years. What I have learned from 
about States' rights is that people are for them if they agree 
with the issue.
    My questions to you are, where do we draw the line?
    Professor, you made a reference to Justice Scalia's opinion 
in the Heller case, creating the exceptions to the rule, as you 
said. Basically, what the justice seemed to be saying is that 
this isn't an unlimited right and not everybody can have a gun 
of any type anywhere they want, which is appropriate.
    But not all States even take it to that limit, as you 
understand. The Court was saying you can restrict on these 
issues.
    Mr. Kopel. Yes.
    Mr. Quigley. Not every State does that. So what you are 
saying is, those States don't have a right to make their own 
laws, even within the bounds of that Supreme Court decision, 
which I am sure you thought was an appropriate decision.
    So at what point do we draw the line? At what point do we 
say these States rights are important, they follow the Supreme 
Court, and these aren't, because we want uniformity. Does that 
apply to--let's just recognize something else.
    This isn't the only issue in which there is no uniformity. 
Extraordinary issues, which the Court has upheld in many cases, 
those people's fundamental right to have. Are we talking about 
uniformity in laws now that the Federal Government is going to 
dictate about marriage licenses, particularly when it comes to 
an issue like same-sex marriage? Are we talking about alcohol 
laws being uniform? Are we talking about abortion rights being 
uniform? Are we talking about smoking laws?
    You know better than most of us in this room, maybe 20 or 
30 other real sensitive issues, of which there are people who 
are passionate about those rights. Are you saying, well, I care 
about guns, so we are going to create a niche for guns to be 
uniform and dictate from the Federal level, but I don't care 
about the other rights.
    Where do we draw the line?
    Mr. Kopel. I appreciate your concern for federalism, and I 
think you, Representative, are absolutely right that there are 
many people in Congress or elsewhere who sort of switch sides 
on these States rights vs. federalism issues, depending on the 
particular topic.
    I think the principal way to do it is to go back to the 
14th Amendment. The 14th Amendment was created for the purpose 
of giving Congress the power to protect national citizenship 
rights. Now, when they were debating the 14th Amendment in 
Congress, they weren't talking about saying, well, this is 
terrible because one State has one rule on smoking and another 
State has another rule on smoking, or States have different 
policies on alcohol. They had very different policies back 
then.
    Mr. Quigley. You are saying they weren't concerned about 
uniformity?
    Mr. Kopel. On issues like smoking or alcohol, for example, 
which you raised. But they were concerned about protecting the 
minimum baseline of the national citizenship rights on travel 
and on the Bill of Rights, including the Second Amendment. And 
we know that expressly from the congressional debates, and that 
is with the McDonald decision was founded on.
    In terms of what you talked about, the Heller decision says 
that States can restrict gun carrying in sensitive places, you 
are exactly right that some States go as far as possible on 
that, and other States don't really have those restrictions.
    Mr. Quigley. At all.
    Mr. Kopel. Exactly. This bill appropriately matches that, 
because it says when the visitor is carrying in the second 
State, the visitor must carry only in those places according to 
the rules of the host State.
    So, for example, in Colorado, we say someone with a 
concealed handgun permit could have a gun in the car when he is 
picking up his kids from a K-12 school. Other States wouldn't 
allow that. Whatever State you are in, you have to follow the 
rules about that, as that State defines sensitive places. That 
is what in H.R. 822 right now.
    Mr. Quigley. Professor?
    Ms. Malcolm. Yes, I agree. I think there is a great deal of 
difference between rules on drinking and something that affects 
one of the rights in the Bill of Rights.
    Mr. Quigley. What about the right to be married? You don't 
tie to any constitutional right, that people have a right to 
get married? Or the Supreme Court hasn't ruled on marriage 
rights again and again a constitutional right, Loving and other 
cases such as that?
    Ms. Malcolm. That is a very hot issue. The Supreme Court 
has----
    Mr. Quigley. So is this issue. They are all hot issues to 
the person who cares about them.
    Ms. Malcolm. The Federal Government has a Defense of 
Marriage Act, which supports States rights in this area, so it 
has----
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from South Carolina, Mr. Gowdy?
    Mr. Gowdy. Thank you, Mr. Chairman.
    Professor Kopel, you agree that the first eight amendments 
apply to the States?
    Mr. Kopel. I think there is substantial evidence from the 
original enactment of the 14th Amendment that was the 
intention. The Supreme Court hasn't taken it all the way for 
all eight, but it has taken it all the way for most of----
    Mr. Gowdy. Well, that would certainly create a very curious 
result, if some applied to the States and some did not. Agreed?
    Mr. Kopel. Certainly, but, for example, the grand jury 
right doesn't currently apply, nor does the Eighth Amendment 
prohibition on excessive fines.
    Mr. Gowdy. Do you agree that there is a constitutional 
right to travel?
    Mr. Kopel. Yes, that is clear. It is one of those things 
that dozens of court decisions have said is necessarily 
implicit in our structure as a national union, and is one of 
the things that the 14th Amendment was specifically intended 
to----
    Mr. Gowdy. Do you agree that there is a constitutional 
right to defend yourself?
    Mr. Kopel. Yes, the Heller decision recognizes a right of 
self-defense.
    Mr. Gowdy. Commissioner Ramsey, while I disagree with you 
on this point, I respect your service and that of others who 
wear the uniform.
    Mr. Ramsey. Thank you.
    Mr. Gowdy. Do you agree that there is a constitutional 
right to defend yourself?
    Mr. Ramsey. Well, I am, unlike the two professors here, not 
an expert in the Constitution. But I would say yes.
    Mr. Gowdy. If there is a constitutional right to defend 
yourself, and the Second Amendment applies to the States, do 
you agree that New York cannot have a different variation of 
the First Amendment than Nevada?
    Mr. Ramsey. Yes.
    Mr. Gowdy. Do agree that Vermont cannot have a different 
Miranda application than North Carolina?
    Mr. Ramsey. I would agree.
    Mr. Gowdy. So you are willing to concede the need for 
uniformity in the administration of certain constitutional 
rights?
    Mr. Ramsey. Yes, sir.
    Mr. Gowdy. Do you agree that there is a constitutional 
right to bear arms?
    Mr. Ramsey. Yes, sir.
    Mr. Gowdy. Professor Kopel, what is the constitutional 
right analysis by which you would limit that right to bear 
arms? 922(g). What is the constitutional construct that one 
would go through to limit your right?
    Mr. Kopel. In the terms of 922(g), you mentioned that, the 
section of volume 18 of the United States Code which creates 
the Federal list of prohibited persons, such as collected 
felons----
    Mr. Gowdy. Right.
    Mr. Kopel. Domestic violence misdemeanors.
    Mr. Gowdy. Right. I know what it is. I was asking what is 
the constitutional construct that you use to support Congress's 
ability to limit the Second Amendment application?
    Mr. Kopel. The argument would be that it is----
    Mr. Gowdy. It is a fundamental right?
    Mr. Kopel. Yes.
    Mr. Gowdy. Would you use strict scrutiny?
    Mr. Kopel. Well, when the Supreme Court says something is a 
fundamental right in the sense that it must apply to the States 
via the 14th Amendment, that is not the same as every part of 
that right getting strict scrutiny.
    Mr. Gowdy. What level of scrutiny which you use?
    Mr. Kopel. The courts are still working that out. And I 
think what that right answer is shown, for example, by the 
Seventh Circuit in the Ezell case, which said Chicago couldn't 
ban target ranges entirely in the city, which if you have 
strict scrutiny or something close to it, for things that 
involve the primary exercise of the right, and you might have, 
as by analogy, if the government tried to restrict the content 
of speech, that would have strict scrutiny.
    On the other hand, when the government sets regulations 
about speech in public places, such as permitting regulations 
to have a parade, things like that, those hit intermediate 
scrutiny. And I think similar----
    Mr. Gowdy. Do you think there can be 50 different 
variations of the First Amendment?
    Mr. Kopel. No. As the Supreme Court articulates First 
Amendment doctrine, of course, every State has to obey that as 
a baseline.
    Mr. Gowdy. Can some States opt out of the requirement that 
you provide legal counsel for people who are facing a term of 
imprisonment?
    Mr. Kopel. Absolutely not.
    Mr. Gowdy. Can they opt out of Miranda?
    Mr. Kopel. Certainly not.
    Mr. Gowdy. Can they interpret cruel and unusual punishment 
differently?
    Mr. Kopel. No.
    Mr. Gowdy. Then why is there no national standard for the 
Second Amendment?
    Mr. Kopel. Because the Supreme Court has--it took them 
about a century and a half to start protecting the First 
Amendment through judicial decisions, and it took them even 
longer to get around to the Second Amendment. And so the 
Supreme Court has not yet articulated the detailed rules.
    Mr. Gowdy. So we are waiting on them.
    All right, I have a little bit of time. I want to Professor 
Malcolm, have you done any studies or are aware of any studies 
with respect to the crime rate among concealed weapon permit 
holders?
    Ms. Malcolm. The studies among permit holders show that 
there are very few permit holders that ever commit a crime.
    Mr. Gowdy. With respect to officer-involved shootings, have 
you done any--respect to whether or not there are any concealed 
weapons permit holders who have been involved in officer-
involved shootings?
    Ms. Malcolm. There aren't any that I know of.
    I should say that people that are interested in committing 
a crime are not likely to go ahead and register a gun and get a 
permit.
    Mr. Gowdy. Amen to that.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentlewoman from California, Ms. Chu?
    Ms. Chu. Thank you.
    Before I begin with my questions, I want to mention that 
Mayors Against Illegal Guns, a bipartisan coalition of more 
than 600 U.S. mayors, has launched a national campaign called 
``Our Lives, Our Laws,'' along with major national police 
organizations, domestic violence prevention advocates, and 
faith leaders, to express their opposition to this bill. In 
just 5 days, 45,000 grassroots supporters have signed this 
petition.
    And my first question is to Commissioner Ramsey. In your 
testimony, you mentioned that laws for obtaining permits in 
Pennsylvania might not work in New York. Now, I was in the 
California State Legislature before, and I know how much we 
debated these laws and passed laws that were specific to our 
State. Can you speak a little more on how States should be 
allowed to create permitting standards that best address the 
needs of that State and its safety concerns?
    Mr. Ramsey. Yes, ma'am. I think that just like, as it is 
now, it is not an issue of the right to bear arms. I mean, that 
is covered by the Second Amendment. But this issue of concealed 
carry, a part of that, is being decided on an individual basis, 
state-by-state, as to whether or not they will allow residents 
to carry a weapon concealed, in some cases open carry, outside 
of their home in different places.
    I mean, some jurisdictions have some restrictions as to 
where that can be. Others may not have the same restrictions.
    I think that a State ought to make that decision for 
themselves based on their knowledge of their State, their 
residents, and so forth, and that a national policy in this 
regard is not needed.
    And let me just comment on one thing that was said earlier 
about the right to defend yourself. I believe a person has a 
right to defend themselves. However, we are talking about the 
potential use of deadly force when we are talking about having 
a firearm. This is not the same as getting in a fistfight, or 
whatever.
    And at what level is it acceptable to shoot and kill a 
person? I mean, police, we are trained constantly on use of 
force issues. If a person breaks into your house and is running 
away from you, down the street, can you shoot them in the back 
and kill them?
    I mean, there are circumstances in which use of deadly 
force is not permitted. I don't know if 300 million Americans 
are going to get that same lesson and understand it the same 
way.
    And I have some serious concerns about people, some 
circumstances in a bar, have a drink, or you get heated in a 
domestic situation, in regards to a permit to carry person 
using it--this past weekend, we had a police-involved shooting. 
The person that was shot by police had a permit to carry, got 
involved in a situation waving a gun around, got himself shot. 
I mean, these things can happen.
    Is it the norm? No. But is it a concern? Absolutely, it is 
a concern for me, because, again, it is the use of deadly 
force. You can't take it back. You cannot take it back. And 
that concerns me a great deal, and I think it puts a lot of 
people unnecessarily at risk.
    Ms. Chu. Thank you for that.
    Professor Kopel, a few minutes ago, when Congress Member 
Scott asked you whether individuals convicted of domestic 
violence could legally obtain a permit, you said no. However, 
people are still obtaining concealed carry permits, and here 
are a couple examples.
    In 2009, Clinton Gallagher pled guilty to misdemeanor 
domestic violence, for which he lost his Missouri permit to 
carry concealed weapons. Gallagher then sued the county sheriff 
to have his permit reinstated and won the case. The court held 
that a misdemeanor domestic battery conviction does not prevent 
someone from possessing firearms in Missouri, even though a 
misdemeanor domestic violence conviction disqualifies a person 
from possessing a gun under Federal law.
    In December 2010, Gallagher shot and killed his 6-year-old 
son and then killed himself.
    A second example, Jason Kenneth Hamilton was arrested in 
December 2005 for attempted strangulation of his on-again, off-
again girlfriend, which led to his conviction for misdemeanor 
domestic battery in June 2006. He was still able to obtain an 
Idaho permit to carry a handgun. And in May 2007, Hamilton shot 
and killed his wife, a police officer, and a church sexton 
before killing himself.
    The county sheriff confirmed that Hamilton had a concealed 
weapon permit despite the domestic violence conviction that 
should have barred him from owning firearms.
    How do you respond to that?
    Mr. Kopel. Well, I would say--have you investigated those 
cases yourself, Representative? Or did you get them from an 
organization?
    Ms. Chu. I got this from an organization.
    Mr. Kopel. Those cases are new to me, so I can't tell you 
much in depth about them. I will certainly look them up and 
find out what I can. I know that sometimes organizations have 
misreported situations, for example, saying that somebody was 
one of these concealed killers when in fact the police and law 
enforcement determined they acted in lawful self-defense.
    But hypothesizing of those facts, if the organization 
provided the facts to you accurately, certainly nobody should--
if a person is ineligible by Federal law to possess a gun, 
local law enforcement or whoever is issuing the permits would 
be making a terrible error to issue a carry permit to a person 
who by Federal law can't even possess a gun, let alone carry 
one.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Texas, Mr. Poe?
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you for being here, Commissioner. I appreciate your 
service----
    Mr. Ramsey. Thank you, sir.
    Mr. Poe [continuing]. As a peace officer. Having been a 
prosecutor and judge for a long time, I saw a lot of men and 
women come in blue to the courthouse to testify. I appreciate 
your service.
    May I ask the professors this question? The Second 
Amendment, the basis of the Second Amendment, is it a right of 
self-defense or is it, based upon historical precedent, a right 
to protect us from government intrusion? Which of those 
theories, or both, do you believe? Just your personal opinion.
    Professor Kopel first.
    Mr. Kopel. I think if you go back to the origins of the 
Second Amendment and its early interpretation, for which 
probably the fullest exposition as St. George Tucker's 
treatise, which was the leading American law treatise for about 
the first quarter century after the Constitution. He described 
the Second Amendment right as including both of those important 
purposes you said, as well as other purposes, such as hunting.
    The First Amendment has multiple purposes in it of the 
communication that people enjoy with each other just for fun as 
well as finding out information about the government or 
preventing tyranny that way, by speech about what the 
government is doing. So likewise, I would say the Second 
Amendment has many salutary purposes.
    Mr. Poe. Those are at least two of the purposes, 
historically.
    Mr. Kopel. Yes.
    Mr. Poe. As well as hunting, a militia as well.
    Professor Malcolm?
    Ms. Malcolm. Yes, I would agree with that. The two main 
purposes are the right of individual self-defense and also this 
notion that should the government ever become tyrannical and 
deprive you of your rights, that this right would enable you to 
recover them.
    But, you know, it is sometimes called I guess a suicide 
clause, but I think that originally that that was the idea, 
that people would be able to vindicate their right.
    Mr. Poe. Thank you.
    Commissioner, when somebody comes into your State and they 
have a foreign driver's license, I should say out-of-State 
driver's license, from Utah or Texas or wherever, set aside the 
issue of fraud, you generally accept that driver's license?
    Mr. Ramsey. Yes, sir. We are able to run it through our 
communications center. We can to a name check. We can see if it 
is a valid license or not.
    Mr. Poe. Even though States have different rules on who can 
get drivers' licenses? Some require more stricter standards 
than others.
    Mr. Ramsey. Some do, but they do have some standards. I 
mean, driving test, certain age, they can suspend for drunk 
driving. I mean, each one is slightly different, but there are 
some standards in place.
    Mr. Poe. Some have different ages on who can drive, put a 
limit on who can drive. Some States even allow people illegally 
in the country to get a driver's license. You would let that 
person--you wouldn't treat that person with a driver's license 
from some State that is illegally in the country any different 
than you would somebody else in another State, because his 
driver's license on its face, if checked out, is presumed to be 
correct.
    Mr. Ramsey. Well, that would apply whether or not they are 
written for driving without a license. Whatever violation they 
committed that caused the contact to begin with, we would 
proceed with.
    Mr. Poe. I understand.
    Mr. Ramsey. I mean, so traffic as an example, I mean, it is 
not the--I mean, there is a specific charge for driving without 
a license, but they would have been stopped for something----
    Mr. Poe. But you always check their driver's license?
    Mr. Ramsey. We would have, yes.
    Mr. Poe. You always check their driver's license.
    Mr. Ramsey. Yes, sir. Yes, sir.
    Mr. Poe. If he stopped for----
    Mr. Ramsey. Everybody should have a driver's license.
    Mr. Poe [continuing]. Speeding or run a red light.
    Mr. Ramsey. Yes, sir.
    Mr. Poe. Make a left turn without a signal, you know, one 
of those.
    Mr. Ramsey. Yes.
    Mr. Poe. In Houston, or in Texas, before we had permits to 
carry, we had this phenomena. We had a tremendous amount, in my 
opinion, of carjackings. It was a simple procedure. It was 
usually a woman that was the victim at night, driving alone. A 
car would pull in front of her. She would pull behind it at an 
intersection. Another car would pull behind her, block her in. 
She is carjacked.
    Those almost stopped overnight, when they got the right to 
carry, because criminals believed that lone female and that gun 
was packing, and she probably was, since there are 461,000 
permits in the State of Texas.
    So that is a self-defense issue. It affects the crime rate 
on that particular type of crime, carjacking, which was, I 
thought, an epidemic.
    Let me ask you this, Commissioner, you have drivers' 
licenses that are little different from State to State. But you 
also have permits that are little different from State to 
State. Do you see the analogy between the two? Or do you still 
think that there should be a difference with permits, firearm 
permits as opposed to drivers' licenses?
    Mr. Ramsey. Well, one, I mean, I personally think that if 
there were going to be, you know, concealed carry--of course, 
there are concealed carry laws, that there ought to be 
standards in place by that particular State.
    But here is where the example that you are using, I kind of 
get lost. If I make a mistake and let a person drive with a 
driver's license that is expired or a forged driver's license, 
that is just a person operating a motor vehicle illegally. If I 
let a person leave with a gun that shouldn't have a gun, they 
potentially can go out and do far greater harm.
    So, you know, I mean, I don't disagree. The carjacking is a 
question of whether or not use of deadly force is justified. 
There are some cases where it is justified. It would be 
appropriate to use it. I just don't think everybody has that 
training to make those distinctions.
    The two neighbors arguing over something between them, and 
someone gets shot, the domestic violence situation, the bar 
where somebody is carrying a gun and it escalates, I mean, 
those are the kind of things that I get concerned about. And 
when you have lax standards, and we have got people--I have 
examples in Philadelphia where a guy attempted murder in 
Philly. He goes to Florida and gets a permit, comes back and 
commits a homicide in Philadelphia.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Arizona, Mr. Quayle?
    Mr. Quayle. Thank you, Mr. Chairman.
    Professor Malcolm, you have done a lot of research and 
writing, comparing the crime statistics from the United States 
as compared to Great Britain. In Great Britain, basically, they 
have prohibited handguns pretty much across the board. How does 
the U.S. violent crime rate compare with Great Britain's?
    Ms. Malcolm. Their violent crime rate is much higher than 
ours. The only thing that is different is the murder rate. But 
for all other types of contact crime, their violent crime is 
much higher.
    Mr. Quayle. So after the ban in 1997, violent crimes 
committed with firearms, did they drop or disappear after that 
ban?
    Ms. Malcolm. No, they doubled. They doubled after they 
banned handguns and retrieved all of them from people who had 
bought them and registered them. The amount of crime with those 
very same weapons that had been banned doubled.
    It really was not a very useful exercise. In fact, their 
Olympic team is not--shooting team is not allowed to practice 
or have their guns in the country. They have to practice in 
Switzerland.
    Mr. Quayle. Okay.
    Do you think that concealed carry laws will actually have 
an effect on property crimes as well, not just violent crimes?
    Ms. Malcolm. I think so. I mean, certainly thefts, it makes 
a big difference, or burglary. In Britain, most burglaries are 
live burglaries where the people are home, because the burglars 
aren't afraid anybody will be armed, whereas in this country, 
it's about 13 percent with the people home, because the 
burglars are more worried about armed homeowners than they are 
about the police. So it really is a deterrent.
    Mr. Quayle. Okay, thank you.
    Commissioner Ramsey, earlier in the Q&A portion, we were 
talking about concealed carry for former police officers. Now, 
what would be the reasoning behind a former police officer for 
wanting to carry a concealed arm?
    Mr. Ramsey. Well, I will be honest with you, sir, when that 
law was before Congress, I was not a proponent. I mean, you 
know, listen, when I take his uniform off, that is it. If I 
never see another gun, it is okay with me. That is my personal 
opinion. I had nothing to do with that.
    But again, you are talking about people that have for 
however many years undergone extensive training in not only the 
handling of a firearm, but use-of-force policy. When is it 
appropriate to use a firearm? This bill doesn't contain any of 
those safeguards.
    I mean, the debate about whether or not we should have gun 
registration, should we even report a gun lost or stolen? We 
can't get laws on that.
    I mean, so we pass some shallow law that says that you can 
carry concealed anywhere you want, as long as you get it from a 
State, and Lord only knows what their requirements would be. 
And you don't want to put in anything around safeguards about 
registration, the kinds of crimes that would prohibit you from 
being able to carry a gun, provisions for revocation of that 
permit.
    I mean, all those kinds of things are very, very important. 
But just to say because this State issued a gun, I ought to be 
able to carry it anywhere I want, we have States right now 
whose gun laws are so lax it is scary. And all we are going to 
do is extend that, and you will have this situation where you 
have all these different things. Police officers are not going 
to know all 50 States and their individual laws.
    And as you travel, sir, from one part of the country to 
another, every time you cross the border, do you know whether 
or not that gun in that unlocked glove compartment is legal or 
illegal? I doubt it. I mean, if you go from one State to 
another, you look at a sign that tells you have gone from a 
speed limit from 65 to 55, you kind of know. Are you going to 
have a big sign with all the gun laws on it, that as you are 
driving, you are going to read it and understand what the laws 
are? It is not practical, the way it is being proposed.
    Mr. Quayle. Well, ignorance of the law is never a defense 
in actual committing a crime or not abiding by the various laws 
that are put in place for concealed carry within the different 
jurisdictions.
    But do you think, if a former police officer wanted to 
carry a concealed handgun, wouldn't that go along the lines of 
he is wanting to look out for his own personal protection and 
the protection of his own family?
    Mr. Ramsey. Well, that is a law that was passed by 
Congress, the Federal law that allows retired police officers 
to carry a firearm. Everyone has their own rationale. I didn't 
push that law. I didn't support it. It was probably the FOP or 
some others that were able to get that bill through.
    But again, you know, if you are getting at a double 
standard, getting in this building you have to walk through all 
kinds of security and machines and so forth. We are not going 
to allow people to conceal carry in this building, and I 
understand that. I was the police chief here in July 1998 when 
two cops got shot right in the Capitol. I understand all that.
    Well, give us the same safeguards. That is all I am asking. 
Give us the same safeguards.
    Mr. Quayle. Thank you very much.
    I yield back.
    Mr. Sensenbrenner. The gentleman from Arkansas, Mr. 
Griffin?
    Mr. Griffin. Thank you, Mr. Chairman.
    Professor Malcolm, I want to follow-up on my colleague Mr. 
Quayle's question. I think he referred to some of the 
statistics and research you have done with regard to the U.K.
    Ms. Malcolm. Yes.
    Mr. Griffin. Have you looked at other European countries? 
Have you seen similar data? Have you seen similar data from the 
other countries?
    Ms. Malcolm. Most of them have stricter gun laws than we 
do. But I think the British laws are probably the strictest, 
and they certainly now have the worst record of violent crime 
than any other country in Europe.
    Mr. Griffin. So the statistics that you have seen with 
regard to burglaries and homes, where the occupants have 
firearms vs. those that don't, the statistics, the numbers are 
about the same, in terms of the Netherlands and some of the 
other countries in Europe?
    Ms. Malcolm. I don't really have an exact statistic about 
that. I don't know whether Professor Kopel does.
    Mr. Kopel. If I could jump in, Representative Griffin, I 
wrote a law journal article on this, and it is hard to get from 
most countries data about--you can get total burglaries, but 
then breaking that down into how many are in the home, and then 
of the ones that were in the home, how many were hot burglaries 
with the victims there vs. how many were, like the American 
pattern, where they cased the joint to try to make sure that 
there is nobody there.
    To the extent that there is data, and the Netherlands is 
actually one of those places, and the Republic of Ireland would 
be another, these other countries seem to have much higher 
rates of home invasions, hot burglaries, than the United States 
does.
    Mr. Griffin. I wanted to ask you one more question, 
Professor Malcolm. Could you comment, and then any of you can 
comment on this, can you comment on the role of the right to 
self-defense in the Heller case and the reasoning of the Heller 
case?
    Ms. Malcolm. Yes. Actually, the majority opinion was very 
careful in going through the history of the meaning of the 
Second Amendment. And the basic right to self-defense was very 
much a part of what the Founders had in mind. They were 
preserving their right to self-defense that they had had as 
Englishmen and continuing it. And also there was a very strong 
belief, which remains, that it is sort of a fundamental law of 
nature, that a person should be able to defend himself, that it 
is not very much comfort for the law to come in afterward and 
pick up the pieces. Locke has written about that and 
Blackstone.
    So self-defense was, you know, rightly found, I think, to 
be the primary purpose of it. And I was actually at the oral 
argument before the Supreme Court, and I remember, I think it 
was Justice Roberts asking about whether, under the Washington, 
D.C., law, you know, there was some possibility that you might 
be able to put your disassembled gun together in the middle of 
the night in the dark if somebody entered.
    You know, I think that self-defense was really uppermost in 
their minds, and it is very, very basic. And it is only one of 
our Bill of Rights that actually makes a point of that.
    Mr. Griffin. So it is fair to say it is an underpinning of 
the Heller decision, is it not?
    Ms. Malcolm. It is the main finding of the Heller decision 
that people have a right to have a handgun in their homes for 
their self-defense, yes.
    Mr. Griffin. Okay, thank you.
    Professor, do you have anything to add?
    Mr. Kopel. I would add that the D.C. law that was found 
unconstitutional, one part of it banned acquiring handguns. 
Another part--and it was found unconstitutional. Another part 
of the law said that even if you had a lawfully possessed rifle 
or shotgun in your home, you couldn't use it for self-defense. 
That was against the law in D.C., and that was also found to be 
unconstitutional.
    So the Court was not saying just that you have a right to 
have a gun. But it was also saying that prohibiting self-
defense is itself something that is unconstitutional.
    Mr. Griffin. Thank you.
    I have no further questions, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Michigan, Mr. 
Conyers?
    Mr. Conyers. Thank you, Mr. Chairman.
    This is the most insane bill I have heard of in--well, I 
can't think of one that was less rational than this one.
    I just want to start off our very friendly discussion with 
you about the subject.
    But I do agree with David Kopel in one area, and I am glad 
that you are here today, sir, because you have maintained that 
we might reach a mutual agreement with the National Rifle 
Association and gun control advocates by having mandatory 
safety training and licenses renewable every few years with 
fingerprinting, background checks, and disqualifications for 
people that may have accumulated records of drug abuse or 
alcoholism. Do you still stand by that?
    Mr. Kopel. I am not quite sure what you are quoting from or 
where I have said of that. That is not something in my 
testimony. But I think what you just described is something 
like the concealed handgun licensing system in Colorado that 
another one of my clients I sometime represent, the Colorado 
State Sheriffs Association, drafted, and it is now the law in 
Colorado. Yes, so I think what you just said approximates the 
Colorado law, and I think that is a good law.
    Mr. Conyers. Okay.
    Mr. Kopel. But I haven't said anything about whether that 
should be nationalized at all.
    Mr. Conyers. Now we have three witnesses here. How many 
know that almost 300 African-American youths between the age of 
15 and 24 are injured or killed by gunfire each week?
    Do you know that? Have you ever read that from the Center 
for Disease Control?
    Ms. Malcolm. I also know that----
    Mr. Conyers. I just said, ``do you.''
    Ms. Malcolm. That particular----
    Mr. Conyers. Yes, yes or no.
    Ms. Malcolm. Yes.
    Mr. Conyers. Okay, now, what else do you want to add?
    Ms. Malcolm. I want to add that most of the people who are 
injured with gun violence have a record of previous crimes, or 
are part of a gang. So usually, this isn't something----
    Mr. Conyers. So that makes it kind of----
    Ms. Malcolm. I am not saying it makes it okay, but----
    Mr. Conyers. Okay, all right.
    Okay, let me ask you, have you heard of that before, 
Professor?
    Mr. Kopel. I have similar statistics presented in my book, 
``Guns: Who Should Have Them?"
    Mr. Conyers. All right.
    And do you know that, Commissioner Ramsey?
    Mr. Ramsey. Yes, sir. I am Philadelphia now, so I live it 
on a fairly regular basis, dealing with gun violence amongst 
young people of color.
    Mr. Conyers. What about, Professor Malcolm, nine children 
and teens die every day from gunfire, one every 2 hours and 45 
minutes. And in 2006, more preschool children--namely, 63--were 
killed by firearms than law enforcement officers--48--were 
killed in the line of duty?
    Ms. Malcolm. I must say, I don't see how denying law-
abiding citizens a right to be armed is going to help that 
situation, because this violence isn't occurring with 
registered guns.
    Mr. Conyers. So the more guns we bring in, the lower these 
figures might become?
    Ms. Malcolm. Guns in the hands of law-abiding citizens to 
protect themselves, so that elderly people can protect 
themselves, so that women alone can protect themselves----
    Mr. Conyers. Preschool children don't normally have a way 
of legally acquiring guns.
    Ms. Malcolm. Well, I agree that some of our schools are 
very violent, and I am not against trying to limit illegal 
guns.
    Mr. Conyers. Well, let me approach it--I like talking with 
you. Let me approach it this way----
    Ms. Malcolm. Okay.
    Mr. Conyers. We have 65 million or more guns out in the 
public right now. Would you say 165 million would help things?
    Mr. Sensenbrenner. The time of the gentleman has expired.
    Mr. Conyers. Could I get 1 additional minute?
    Mr. Sensenbrenner. Without objection.
    Mr. Conyers. Yes or no?
    Ms. Malcolm. Oh, I think that guns in the hands of law-
abiding people will prevent crime, but it is very, very 
difficult to get illegal guns out of circulation and these----
    Mr. Conyers. That isn't what I asked you.
    What is your response?
    Mr. Kopel. Representative Conyers, we have a test for that, 
because according to the Bureau of Alcohol, Tobacco, Firearms 
and Explosives, we actually now have in this country 
approximately 280 million guns, so as we went from 65 million 
165 million to 280 million, we had a natural experiment about 
what would happen. And the gun crime rate went down, not up.
    Mr. Conyers. So then what about 380 million instead of 280 
million?
    Mr. Kopel. I don't think that the number matters that much. 
It is whose hands they are in. Guns in the hands of criminals 
are extremely dangerous and should be dealt with by law 
enforcement and by the laws. Guns in the hands of law-abiding 
people enhance public safety.
    Mr. Sensenbrenner. The time of the gentleman has once again 
expired.
    Mr. Conyers. Thank you, Chairman Sensenbrenner.
    Mr. Sensenbrenner. Thank you.
    The gentlewoman from Florida, Ms. Adams?
    Ms. Adams. Thank you, Mr. Chairman.
    Commissioner, is Pennsylvania's information when someone 
purchases a firearm, is it the same test or background check or 
whatever as every other State in the United States?
    Mr. Ramsey. No, ma'am.
    Ms. Adams. So if someone was to purchase a firearm in your 
State, there would be different requirements for an NCIC 
check----
    Mr. Ramsey. Oh, so legally purchase?
    Ms. Adams. Yes.
    Mr. Ramsey. Oh, I am sorry----
    Ms. Adams. I said ``purchase.'' I know that there has been 
some blurring of the lines here, but I am talking about 
purchasing a firearm.
    Mr. Ramsey. I don't know if it is the same in every State. 
I imagine if not, it is pretty close. You have to do the NCIC 
checks. There is a waiting period. There is a process.
    Ms. Adams. I will, in full disclosure, let you know that I 
am a former police officer from Florida.
    Mr. Ramsey. Yes.
    Ms. Adams. And I worked on this a lot. I was actually one 
of those who had to go out when that failed and had to retrieve 
firearms from felons who weren't supposed to have them. So I 
understand the system quite well.
    And I have listened, as it seems that it has blurred 
between gun ownership and gun purchasing. So I wanted to ask 
you that, when you have your records expunged in your State, 
what does that mean?
    Mr. Ramsey. Well, that means that all official records of 
an individual's arrest would be removed from whatever files we 
have.
    Ms. Adams. Could they then get a firearm permit in your 
State?
    Mr. Ramsey. They could get one. If the records have been 
expunged and you ran the records, you wouldn't have anything to 
go on.
    Ms. Adams. So in 2009, when this--I believe it was Mr. Hill 
you mentioned. When he had--in '05, he had his altercation with 
you. But in '09, I believe it was when he went to Florida. And 
at that time, his records were expunged; is that correct?
    Mr. Ramsey. I don't know if his records were expunged or 
not in '09. Eventually--I am not certain.
    Ms. Adams. Okay. Well, that is what the report says.
    So Florida would not have known about the revocation unless 
your State would have notified them.
    Do you notify other States that you have reciprocity with 
when you revoke someone's permit?
    Mr. Ramsey. We do send out notices when we revoke an 
individual. I don't know if all 25 States, if it is done 
electronically, because not every State has that capacity, or 
if it is done by telephone or letter. And I don't know what 
they do with information once they got it.
    Ms. Adams. Well, I can tell you that we would have paid 
close attention to it in our agency.
    So, you know, the reason I am asking these questions is 
because, as a former law-enforcement officer, I have heard the 
description of a 3 a.m. stop. I will tell you that I would be 
happy to know that someone has a concealed firearm permit with 
them, so that I can then ask them to come away from the 
vehicle, ask where their weapon is, actually know if they are 
actually caring.
    It is a lot easier for me to determine the threat based on 
if someone is carrying or not. If they tell me upfront they are 
carrying, at least I know that they are carrying. And then I 
can go forward with whether or not it is a legal permit or not 
a legal permit, but I need to be able to determine if I am 
going to be safe in doing my duties. Wouldn't you agree?
    Mr. Ramsey. Well, if they tell you.
    Ms. Adams. Well, you are saying if they produce this 
permit, it may be false, it may not, and you felt that that 
would be more of a danger to your police officer, whereas I 
feel like if they produce a permit, then they are telling me 
that there could possibly be a weapon within their vicinity, 
and that I am now aware of that. And I felt like that would 
make me feel a little bit more knowledgeable about the stop at 
3 a.m. in the morning, because I have done many of those.
    Mr. Ramsey. Well, my issue was, how do you verify whether 
or not it is a legitimate permit? There is no database----
    Ms. Adams. Well, at that time in the morning, wouldn't you 
be more likely to be verifying where that weapon is and what 
kind of custody there is to it?
    Mr. Ramsey. Well, ma'am, I have probably made more stops 
than you. I have been on the job longer. But at some point in 
time, you are going to be making--at least attempting to verify 
whether or not the permit is legitimate. And it might or might 
not be legitimate.
    Ms. Adams. But the description you gave me, it seemed like 
it was more on the safety of the police officer. And I am for 
safety of police officers. My late husband is on the wall here 
at Judiciary Square, so I really understand what law 
enforcement does and does not do, as being part of law 
enforcement community for over 17.5 years before being elected.
    So the difference that we have heard today, where we have 
seen the lines blurred, is more along the lines of gun 
ownership vs. a permit. If you are not legally allowed to own a 
gun, whether you have a permit or not, you are not supposed to 
be able to purchase that gun; is that not correct?
    Mr. Ramsey. If you are not legally allowed, if you can go 
to another State whose laws are different from your own 
jurisdiction and get a permit----
    Ms. Adams. I am talking about purchasing the gun.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Tennessee, Mr. Cohen?
    Mr. Cohen. Thank you, Mr. Chairman.
    This is an interesting bill, and I am a sponsor. My name 
appears probably as the one you would say is which one doesn't 
belong.
    I passed the right-to-carry bill in Tennessee many, many, 
many years ago, under the belief, as Professor Malcolm says, 
that law-abiding folks who can hit a target, haven't had a 
criminal record in the past, et cetera, and the standards that 
we have, are not the problem. It is the criminals. And the 
criminals are always going to get the guns.
    I have friends that are gunophiles, and they want to carry 
their pistol everywhere. I remember the Saturday Night Live, 
show me your pistol instead of show me your Lark pack or 
whatever, and they are like that.
    And so they talk to me about traveling to different States 
and having a right-to-carry. And I think that makes sense.
    But I do understand a little problem. If you have some 
State that has really lax restrictions, limitations, maybe 
don't even--they wouldn't even necessarily have to have a 
criminal background check. I mean, that is not required by a 
State or some other--is there some way this could be tailored 
in a way that it facilitates people that travel and may be 
temporary, but not necessarily people that forum shop and go to 
another State and get a gun.
    Professor Kopel, Professor Malcolm, do you think there is a 
way to tailor it to the interests----
    Mr. Kopel. Well, I think that is a very reasonable 
question. And the starting point would be to instead of having 
these hypotheticals about State practices would be to identify 
what State is the problem, would be allegedly causing this 
problem.
    Of the States--I don't know of States that, in practice, 
where they issue concealed handgun permits to anyone without 
whoever is in charge doing a background check. If there is 
some--some State laws, the standard like they have in Tennessee 
or Colorado, has a very particular process to follow, and it 
would mandate the background check. Other States that have sort 
of older laws that haven't been brought up to date like the 
Tennessee and Colorado laws, and New York State might be an 
example of that, might not have something formal in their 
statute that says before issuing the permit to a background 
check.
    But my bet would be that in New York, the background checks 
are done, too. So I think it would make sense to say--to first 
find out is there any State where, in real life, permits are 
issued without background checks.
    And I suspect that there----
    Mr. Cohen. Well, we are talking about background checks. We 
are saying you don't get the permit if you have been convicted 
of a gun offense----
    Mr. Kopel. Or anything that makes you ineligible to possess 
a gun----
    Mr. Cohen. The Federal law.
    Mr. Kopel [continuing]. Under the law, or whatever other 
requirements there might be in the State.
    Mr. Cohen. Well, of the States that have carry permits, 
which would you say is--a couple of them, the loosest laws, the 
least restrictions?
    Alaska, I think they give you one at birth, don't they? 
They give you a gun?
    Mr. Kopel. Along with a check from oil fund.
    There are four States that do not require a permit to carry 
a concealed handgun for protection, if you are a person who can 
lawfully possess a gun in the first place. Now, of course, that 
doesn't do anything--have any application to this bill.
    In Alaska, you don't need a permit. You can get a permit, 
which would be valid and does have the mandatory background 
check and then the fingerprints and all that.
    Mr. Cohen. But which are the loosest States other than 
those four? And why--what is the minimum requirements they 
have?
    Mr. Kopel. Most States formally required training and most 
of their rest that don't formally require it do it--have more 
discretionary-type statutes and tend to require it in practice.
    Pennsylvania is one of the States that doesn't have an 
explicit training requirement.
    Mr. Cohen. So, like somebody from Alabama that couldn't get 
a license, they could have gone up to Pennsylvania maybe--do 
you have to be a resident up there?
    Mr. Kopel. Yes, Pennsylvania will not issue to 
nonresidents, but Pennsylvania is one of the many States that 
is reasonable about doing reciprocity agreements with other 
States.
    Mr. Cohen. Well, maybe if the bill was amended to say that 
you had to be a resident of the State at least to get the 
permit, at least that would stop people from shopping in other 
States, if you had to be a resident.
    Do they all require residency?
    Mr. Kopel. There are about I think a half-dozen States that 
will issue to nonresidents. So for example, some States--Maine, 
for example, has only a very few reciprocity agreements with 
other States, but they will allow a nonresident to apply. So I 
as a Coloradoan who might to go to Maine, my Colorado permit 
isn't valid in Maine, but Maine will allow me to apply for a 
permit in Maine.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    I appreciate your holding this hearing.
    Professor, is it ``Kopel''?
    Mr. Kopel. Kopel.
    Mr. Goodlatte. Kopel, sorry.
    Just to be clear, H.R. 822 does not affect a State's 
regulations regarding how, where, and when a concealed weapon 
can be carried, right?
    Mr. Kopel. Absolutely right.
    Mr. Goodlatte. And each State's laws regarding carrying and 
use will still apply to everyone within their State lines, 
regardless of whether the person is a resident or not?
    Mr. Kopel. That is right.
    Mr. Goodlatte. Don't most States have pretty broad 
concealed carry laws, often referred to as shall issue or 
constitutional carry?
    Mr. Kopel. That is the norm in the United States. 
Basically, in 41 States, law-abiding adults can either with a 
permit, and a few without needing one, can carry a firearm for 
lawful purposes.
    Mr. Goodlatte. My understanding is that as of next month, 
when apparently one or two States' laws will change, 36 States 
will have shall-issue laws and three will have constitutional 
carry.
    Also, don't most States currently recognize the concealed 
carry permits of other States?
    Mr. Kopel. Yes.
    Mr. Goodlatte. Fourteen have outright recognition, 10 
States automatically recognize permits, and 16 States will 
recognize another State's concealed carry permit, if certain 
conditions are met. So in essence, this bill largely recognizes 
and makes a little more consistent the current state of 
affairs?
    Mr. Kopel. Yes, while also addressing some of those States 
which are the outliers, such as New York or California, which 
do not have any--in New York, there is no way a visitor of New 
York, to New York State, can carry a handgun for lawful 
protection. New York has no reciprocity and New York will not 
issue permits to nonresidents.
    Mr. Goodlatte. Is there evidence that by lowering violent 
crime rates, concealed carry laws help to save money?
    Mr. Kopel. Anything that lowers violent crime rates of 
course will probably save money for the public in the long run. 
Some academic researchers say that there are statistically 
significant reductions in at least some categories of violent 
crime after the shall-issue laws are enacted. Other academic 
researchers say that, at the level of statistical significance, 
that they can't find any statistically significant effects one 
way or the other.
    Mr. Goodlatte. Professor Malcolm, do you have anything to 
add to that?
    Ms. Malcolm. No, I thought the----
    Mr. Goodlatte. You might to get used closer to the 
microphone.
    Ms. Malcolm. Sorry about that.
    No. Could you just repeat the question?
    Mr. Goodlatte. Just is there evidence that by lowering 
violent crime rates, concealed carry laws help to save money 
for individuals, for governments, for what have you?
    Ms. Malcolm. I think that they probably do indirectly by 
having less crime.
    One thing that hasn't been brought up is the amount of 
defensive actions with guns, where people, for the most part, 
just need to brandish the gun to prevent a crime. So there is a 
great deal of saving in that sense.
    But of course, I mean, I think financial issues aren't a 
major thing here. It is, you know, human safety.
    Mr. Goodlatte. Of course. But as Professor Kopel notes, if, 
indeed, you prevent a crime from occurring, you are probably 
also----
    Ms. Malcolm. You save, yes.
    Mr. Goodlatte [continuing]. Resulting in savings in terms 
of the cost of various aspects of our society, the loss to the 
victims, the cost of law enforcement and so on.
    Ms. Malcolm. Oh, yes.
    Mr. Goodlatte. Commissioner Ramsey, are you aware of any 
evidence of crime increasing as a result of jurisdiction 
liberalizing, of any jurisdiction liberalizing its right-to-
carry laws?
    Mr. Ramsey. I am not personally aware of that, sir. When I 
came to Pennsylvania, they already had a concealed carry law, 
so I have no history there. I came from both Chicago and 
Washington that had pretty strict gun laws. So I don't know 
personally if it has had any effect one way or the other.
    Mr. Goodlatte. Do you have experience with Pennsylvania's 
citizens who have concealed carry permits being more likely to 
engage in criminal activity than those who do not?
    Mr. Ramsey. The ones that have concealed carry permits and 
that have gone through the process are not, for the most part, 
people that we have an issue with, although we just had a 
shooting this past weekend that involved an individual with a 
concealed carry permit. One of our officers, unfortunately, had 
to shoot. But that is not the norm. I mean, that--but it does 
happen on occasion. But it is not the norm.
    Mr. Goodlatte. Thank you.
    Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Virginia, Mr. Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    And I apologize I wasn't here to hear all of your 
testimony, because I was in the Armed Services Committee in a 
hearing that we have going over there now.
    But as many of my colleagues have said, our big concern is 
to make sure, especially when we have constitutional rights, 
that we are protecting those rights of our citizens, and we are 
doing so in as consistent a manner as possible.
    My colleague from Virginia raised one of my big concerns, 
which was that I have not seen or read or heard of any evidence 
where concealed carries have increased the amount of crime that 
we have had in those States. And it is my understanding from 
listening to your testimony that none of you have heard of any 
such increases either.
    Would that be an accurate statement?
    Ms. Malcolm. Yes.
    Mr. Forbes. The second thing is that concerns me, 
obviously, is I know if you look at the inconsistency of these 
laws, I am always concerned about an innocent citizen getting 
caught up in something we never intended, not because they were 
bad or wrong, but just because they didn't know what the law 
was at that particular point in time. And it is certainly not 
what our goals are, and we shouldn't be doing that.
    And the last question that I would ask is there any 
evidence we have that, whether or not we have a concealed carry 
law, it is going to have an impact on violent criminals? I 
mean, do we have anything at all that says that it deters them, 
if we don't have it? Or that they use it and manipulate it in 
some way, if we pass these, to increase their violent actions?
    Ms. Malcolm. Okay, I will go first.
    In regard to your comment about innocent people getting 
caught up in doing something that they hadn't realized was 
wrong, one of my colleagues has been doing studies along with 
other people on overcriminalization in our laws. And I think 
that is a real problem and one that one would hope that this 
legislation would help resolve.
    As far as the impact on violent criminals, there is a real 
deterrent impact if criminals do not know who is armed. And I 
think that is one of the benefits of concealed carry, those 
people who are carrying concealed give a benefit to those 
people who don't, because the criminal is not going to know who 
is armed and who isn't, and so they will have to be much more 
cautious. And I think in that sense that it is a really serious 
deterrent.
    And there have been studies, actually, of violent criminals 
or burglars in jail who say that they have been more worried 
about armed homeowners than they have been worried about the 
police. So I think that that is a real impact.
    Mr. Forbes. And you may have given those to us. But could 
you just give us some of the studies to look at, so that we 
can----
    Ms. Malcolm. Yes, they are in my testimony.
    Mr. Forbes. Wonderful. That's great, to be able--anyone 
else have different----
    Mr. Ramsey. Well, I would just like to suggest a different 
point of view. We handle a lot of shootings that are the result 
of robberies gone bad. And a lot of times it is because the 
person being robbed, in the description given by the offender 
who was arrested, made a sudden movement, and they believed 
that movement is toward a gun.
    Well, if you are getting robbed, he has got his gun out. 
You have to get to yours. It can make him shoot quicker than 
they would normally would do. So we can have this debate all we 
want about whether or not it prevents--you never know what you 
prevent.
    But the reality is, we have more and more people being shot 
as part of a robbery where the offender just shoots right off 
the bat or shoots if they make the slightest move, believing 
that perhaps they are armed, because we do have concealed carry 
in Pennsylvania.
    Whether that is the motive or not, I don't know. But it 
just cuts both way. And I just think it is important to get 
that out there, that, you know, this isn't something that, you 
know, I am more afraid to break in a house--they don't want to 
break in a house if nobody's home, period, armed or not. I have 
gone to more crime scenes over 40 years where I have found kids 
that found a gun and shot themselves or a sibling than I have 
finding a person who is trying to break in as a homicide 
victim. That is just a fact over 40 years of service in three 
different cities.
    Mr. Forbes. Commissioner, if I could just----
    Mr. Chairman, one last question?
    Mr. Commissioner, you know, when we asked the professor if 
she had any studies, she said yes and she would give us the 
studies, and they were in her testimony. Are you suggesting 
that if you did not have a concealed carry law, that someone in 
a robbery would be less inclined to shoot someone who was 
making up movement quicker?
    Mr. Ramsey. That is not exactly what I am--what I am 
suggesting is this, sir. I am not an academic. I haven't spent 
my life doing studies. I have just been on the street for 40 
years. So I see what actually happens out there on the street, 
and all of it is not captured in studies. There is no--you 
can't say that it makes a difference if you have it or it makes 
difference if you don't.
    All I am saying is that it cuts both ways. I mean, I can 
tell you incidents where a person thought he had a gun and he 
shot a little quicker than he normally would do, and there are 
others where a person had a gun and was able to defend himself.
    My problem isn't that. My problem is a very broad law with 
absolutely no teeth and regulation in it that is going to bring 
some standardization to the issue, so that we can make sure 
that people properly handle guns, they understand use of force, 
when it is appropriate to use deadly force, because that is 
what we are talking about, not just because you are afraid, but 
because you actually think your life is in jeopardy, or the 
life of another. If you fire a weapon, what does the background 
look like? The same training that we get as police officers, I 
didn't see that in this. All I see is, you will just honor 
everybody else's agreement, irrespective of how weak or how 
poor it is written.
    And we have some that are pretty poor.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. I would like to thank all of our 
witnesses for their testimony today.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can, so that their answers may be 
part of the record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    And with that, again, I would like to thank the witnesses.
    And, without objection, this hearing is adjourned.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
